Report No. DODIG-2012-140                 September 28, 2012





    An Unreliable Chart of Accounts Affected Auditability

    of Defense Enterprise Accounting and Management

                   System Financial Data

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
COA                           Chart of Accounts
DDRS                          Defense Departmental Reporting System
DEAMS                         Defense Enterprise Accounting and Management System
DFAS                          Defense Finance and Accounting Service
ERP                           Enterprise Resource Planning
FISCAM                        Federal Information System Controls Audit Manual
FMO                           Functional Management Office
OFFM                          Office of Federal Financial Management
OUSD(C)                       Office of the Under Secretary of Defense (Comptroller)
PMO                           Program Management Office
QRM                           Quick Reaction Memorandum
SAF/FM                        Assistant Secretary of the Air Force for Financial
                                 Management and Comptroller
SFIS                          Standard Financial Information Structure
USAF                          U.S. Air Force
USSGL                         United States Standard General Ledger
USTRANSCOM                    U.S. Transportation Command
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                              September 28, 2012

MEMORANDUM FOR COMMANDER, U.S. TRANSPORTATION COMMAND
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)


SUBJECT: An Unreliable Chart of Accounts Affected Auditability of Defense Enterprise
         Accounting and Management System Financial Data
         (Report No. DODIG-201 2-140)

We are providing this report for your information and use. Unless the deficiencies identified in
this report are corrected, the Defense Enterprise Accounting and Management System's data
reliability problems will likely impair DoD and U.S. Air Force abi lities to meet their
FY 2014 and FY 2017 audit readiness goals.

We considered management comments on a draft of th is report when preparing the final report.
The Principal Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller) provided comments and responded for the Functiona l Manager, Defense Enterprise
Accounting and Management System Functional Management Office. The Principal Deputy
Assistant Secretary of the Air Force (Financial Management and Comptroller) comments
conformed to the requirements of DoD Directive 7650.3; therefore, additional comments are not
required.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8938 (DSN 664-8938).



                                                f"W.-.1       (>) .   J""\\
                                                 Richard B. Vasquez, CPA
                                                 Acting Assistant Inspector General
                                                 Financial Management and Reporting
   Report No. DODIG-2012-140 (Project No. D2011-D000FH-0097.000)                            September 28, 2012


                   Results in Brief: An Unreliable Chart of
                   Accounts Affected Auditability of Defense
                   Enterprise Accounting and Management
                   System Financial Data
What We Did                                                   addition, the approved plan for reporting directly to
                                                              DDRS may challenge the USAF’s ability to obtain
The U.S. Air Force’s (USAF) auditability is
                                                              audit readiness for the Statement of Budgetary
dependent on successfully deploying the Defense
                                                              Resources before the end of FY 2014. Further,
Enterprise Accounting and Management System
                                                              unforeseen delays with reporting SFIS financial data
(DEAMS). The current DEAMS life-cycle cost
                                                              directly to DDRS may impede USAF’s ability to
estimate is $2.1 billion. As of March 31, 2012,
                                                              achieve audit readiness on the remaining financial
DEAMS expenditures totaled approximately
                                                              statements by FY 2017.
$322.2 million.
                                                              On November 14, 2011, we issued a Quick Reaction
We determined whether the DEAMS fulfilled
                                                              Memorandum discussing the unauthorized changes to
selected functional capabilities needed to generate
                                                              the DEAMS COA.
accurate and reliable financial management
information.
                                                              What We Recommend
What We Found                                                 We recommend that the Assistant Secretary of the Air
                                                              Force for Financial Management and Comptroller
DEAMS lacked critical functional capabilities needed
                                                              perform validations of the corrective actions for the
to generate accurate and reliable financial
                                                              unauthorized changes and inconsistencies in the
management information. DEAMS managers did not
                                                              DEAMS COA before further deployment to ensure
maintain an adequate Chart of Accounts (COA). In
                                                              the corrective actions are operating as intended.
addition, DEAMS did not report Standard Financial
Information Structure (SFIS) financial data directly to
                                                              The Functional Manager, DEAMS FMO, should
the Defense Departmental Reporting System (DDRS).
                                                              implement monitoring controls to identify
These occurred because:
                                                              inconsistencies in the DEAMS COA data, determine
                                                              whether inconsistencies in the account data affected
   x   Functional Management Office (FMO)                     any other areas of the system, and document policies
       personnel did not monitor changes to the COA           and procedures for modifying the DEAMS COA.
       and document policies and procedures for
       modifying the COA, and
   x   DoD and USAF management initially decided
                                                              Management Comments and
       not to report financial data directly to DDRS          Our Response
       until fourth quarter FY 2016.                          The Principal Deputy Assistant Secretary of the Air
                                                              Force (Financial Management and Comptroller),
DEAMS data lacks validity and reliability. Unless             provided comments and agreed to the
the unauthorized changes and inconsistencies in the           recommendations for the Assistant Secretary of the
DEAMS COA are corrected, DoD and USAF                         Air Force (Financial Management and Comptroller)
management cannot rely on DEAMS information to                and the Functional Manager, DEAMS FMO.
make sound business decisions. Further, DEAMS                 Therefore, no additional comments are required.
management cannot ensure updates to the DEAMS                 Please see the recommendations table on the back of
COA are performed correctly and consistently. In              this page.
                                                          i
Report No. DODIG-2012-140 (Project No. D2011-D000FH-0097.000)              September 28, 2012

         Recommendations Table
                 Management                Recommendations            No Additional
                                          Requiring Comment         Comments Required
         Assistant Secretary of the Air                         1
         Force for Financial
         Management and Comptroller
         Functional Manager, Defense                            2.a, 2.b, 2.c
         Enterprise Accounting and
         Management System
         Functional Management
         Office




                                                ii
Table of Contents

Introduction	                                                            1


      Audit Objective                                                    1

      DoD and USAF Audit Readiness                                       1

      DEAMS Overview                                                     1

      Financial Systems Requirements                                     2

      Roles and Responsibilities                                         2

      Internal Controls Not Effective for Maintaining an Adequate COA    3


Finding. DEAMS Financial Data Reliability Challenges	                    4


      FMO Personnel Did Not Maintain an Adequate COA                     4

      DEAMS Did Not Report SFIS Financial Data Directly to DDRS          8

      SAF/FM Management Actions                                          9

      Conclusion                                                        10

      Recommendations, Management Comments, and Our Response            10


Appendices

      A. Scope and Methodology	                                         13

            Use of Computer-Processed Data                              14

            Prior Coverage                                              14

      B. DEAMS Deployment Schedule	                                     15

      C. Quick Reaction Memorandum	                                     16

      D. U.S. Air Force Memorandum Comments	                            19

      E. Defense Finance and Accounting Service Memorandum Comments	    21


Glossary	                                                               23


Management Comments

      U.S. Air Force Comments	                                          24

Introduction
Audit Objective
Our overall objective was to determine whether the Defense Enterprise Accounting and
Management System (DEAMS) fulfilled selected functional capabilities needed to generate
timely, accurate, and reliable financial management information. The criteria related to the
functional capabilities we reviewed did not require testing of the timeliness of the financial data.
Consequently, we did not determine whether DEAMS provided DoD management with timely
financial information. See Appendix A for the scope and methodology and prior audit coverage.
See the glossary for definitions of technical terms.

DoD and USAF Audit Readiness
According to the Office of the Secretary of Defense, auditable statements are needed to facilitate
decision-making, to comply with the law, and to reassure the public that DoD personnel are good
stewards of their funds. DoD management plans to achieve audit readiness for the Statement of
Budgetary Resources before the end of FY 2014. They also plan to meet the legal requirement to
achieve full audit readiness for all DoD financial statements by FY 2017. The U.S. Air Force’s
(USAF) auditability is dependent on establishing an audit ready systems environment that
includes successfully deploying Enterprise Resource Planning (ERP) systems, including
DEAMS, and interfacing them with other business and financial systems.

USAF’s audit readiness faces challenges, such as the lack of a transaction-based general ledger
and the inability to trace financial transactions from the business event to the financial statements
and back. The problem is a direct result of a legacy accounting system based on 1960s’
accounting processes and procedures. USAF management expects the deployment of its target
financial management systems and validation of the systems for compliance with the Federal
Financial Management Improvement Act to correct a weakness with its financial management
systems.

DEAMS Overview
DEAMS is an ERP initiative between USAF, the U.S. Transportation Command
(USTRANSCOM), and the Defense Finance and Accounting Service (DFAS). Its purpose is to
support the warfighter with timely, accurate, and reliable financial information enabling efficient
and effective decision-making. DEAMS development is under the direction of the Office of the
Secretary of the Air Force for Financial Management and Comptroller, and the Office of the
Secretary of Defense Finance Accounting Operations and Financial Management Domain.
DEAMS will generally improve financial management capabilities with Oracle Federal
Financials commercial-off-the-shelf software. DEAMS is scheduled to replace at least
10 USAF financial legacy systems. The current life-cycle cost estimate is $2.1 billion. As of
March 31, 2012, DEAMS expenditures totaled approximately $322.2 million.

DEAMS’ deployment schedule includes two increments. Deployment of the first increment
began in July 2007 and is scheduled to end in FY 2016. DEAMS’ second increment is scheduled
for deployment from FY 2016 through FY 2017. At the time of our review, the full deployment
date for DEAMS was scheduled for the third quarter of FY 2017. A portion of DEAMS


                                                 1

Increment 1 was deployed to at least 1,200 USAF, USTRANSCOM, and DFAS users. When
fully deployed, approximately 30,000 personnel will use DEAMS. See Appendix B for the
current deployment sites and deployment schedule.

Financial Systems Requirements
DoD Components are required to follow the Office of Federal Financial Management (OFFM)
regulation, OFFM-NO-0106, “Core Financial System Requirements,” January 2006, when
developing financial systems. OFFM-NO-0106 requires financial systems to have the ability to
provide consistent, standardized information for program managers, financial managers, agency
executives, and oversight organizations. The regulation also requires core financial systems to
provide automated functionality to:

    x   capture additions, modifications, and cancellations, including the date, time, and user
        identification; and
    x   generate an audit trail of all accounting classification structure additions, changes, and
        deactivations, including effective dates of changes.

The Federal Information System Controls Audit Manual (FISCAM), February 2009, states
master data serves as the basis for transaction processing. Master data policies and procedures
require data owners to be responsible for the creation, deletion, and changes of master data and
changes to data characteristics. Further, master data provides the basis for ongoing business
activities and includes the General Ledger Account Structure and chart of accounts (COA). It is
critical that controls exist to ensure the integrity and quality of the data.

Office of the Under Secretary of Defense (Comptroller) (OUSD[C]) Memorandum, “DoD
Standard Chart of Accounts in Standard Financial Information Structure (SFIS),” August 13,
2007, directs the use of a DoD Standard COA in Component target general ledger accounting
systems. The COA aggregates transaction activity into account balances and reports those
balances to departmental reporting and other accounting systems. The DoD Standard COA is
comprised of United States Standard General Ledger (USSGL) accounts and DoD standard
account extensions to provide the detail required for budgetary, financial, and management
reports.

Roles and Responsibilities
The Assistant Secretary of the Air Force for Financial Management and Comptroller (SAF/FM)
is responsible for exercising the comptroller and financial management functions of the
Air Force, which include preparing the Air Force budget; directing cost and economic analysis
programs; and overseeing accounting and finance operations, systems, and reporting. The
DEAMS Functional Management Office (FMO), which is comprised of personnel from USAF,
USTRANSCOM, and DFAS, 1 defines functional requirements. They also record, vet, and
formalize the requirements before delivering them to the DEAMS Program Management Office
(PMO).


1
 From this point forward, when using “DEAMS FMO” or “FMO,” we are referring to the entity comprised of
personnel from USAF, USTRANSCOM, and DFAS.

                                                     2

Internal Controls Not Effective for Maintaining an
Adequate COA
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,” July 29,
2010, requires DoD organizations to implement a comprehensive system of internal controls
providing reasonable assurance that programs operate as intended and evaluate the effectiveness
of controls. We identified internal control weaknesses related to maintaining an adequate COA.
Specifically, DEAMS management was not monitoring updates to the COA or documenting
policies and procedures for modifying the COA. We will provide a copy of the report to the
senior official responsible for internal controls in the Air Force.




                                               3

Finding. DEAMS Financial Data Reliability
Challenges
DEAMS lacked critical functional capabilities needed to generate accurate and reliable financial
management information. Specifically, DEAMS managers did not maintain an adequate
DEAMS COA. In addition, DEAMS did not report SFIS financial data directly to the Defense
Departmental Reporting System (DDRS). These conditions occurred because:

   x   FMO personnel did not monitor updates to the COA as recommended by the FISCAM,
   x   FMO personnel did not have documented policies and procedures for modifying the
       COA, and
   x   DoD and USAF management initially decided not to report financial data directly to
       DDRS until fourth quarter of FY 2016.

As a result, DEAMS COA data lacks validity and reliability. Unless the unauthorized changes
and inconsistencies in the DEAMS COA are corrected, DoD and USAF management cannot rely
on DEAMS information to make sound business decisions. Further, DEAMS management
cannot ensure updates to the DEAMS COA are performed correctly and consistently. In
addition, DEAMS’ approved plan for reporting directly to DDRS may challenge the USAF’s
ability to obtain audit readiness for the Statement of Budgetary Resources before the end of
FY 2014. Further, unforeseen delays with reporting SFIS financial data directly to DDRS may
impede USAF’s ability to achieve audit readiness on the remaining financial statements by
FY 2017 and could result in increased cost and schedule growth.

On November 14, 2011, we issued a Quick Reaction Memorandum (QRM) that discussed
unauthorized changes to the DEAMS COA and related audit trail deficiencies (see Appendix C
for the QRM). SAF/FM and DFAS provided responses to the QRM (see Appendix D for
SAF/FM response and Appendix E for the DFAS response).

FMO Personnel Did Not Maintain an Adequate COA
FMO personnel did not maintain an adequate COA. Specifically, the DEAMS COA contained
unauthorized changes and inconsistencies in account data. The FISCAM states that it is critical
for controls to exist over the integrity and quality of the data in the COA. In addition, the
COA provides the basis for ongoing business activities and should be carefully controlled. Each
general ledger account in the DEAMS COA includes several data fields, such as “Creation
Date,” “Updated By,” and “Last Update.” These fields are important for maintaining the audit
trail for DEAMS accounts. The DEAMS COA also includes an “Enabled Flag” data field, which
indicates whether general ledger accounts in DEAMS are active and available for posting
transactions. However, the DEAMS COA was inadequate because FMO personnel were not
monitoring additions, deletions, or changes to COA data. Further, FMO personnel did not
document policies and procedures for modifying the DEAMS COA.




                                                4

Unauthorized Changes to Accounts Reduced the Reliability of DEAMS
Financial Data
Unauthorized changes to the “Last Update” and “Enabled Flag” fields occurred in 1,101 of 4,207
general ledger accounts. After we brought these unauthorized changes to FMO personnel’s
attention on September 8, 2011, they investigated and
                                                                   A data coding error was
found that DEAMS identified AUTOINSTALL, which
                                                              incorrectly changing and deleting
is a default user account in the Oracle E-Business Suite,
                                                                  the correct general ledger
as the last user to update approximately 25 percent of
                                                               account data and its audit trail.
DEAMS’ total general ledger accounts. According to
FMO personnel, that many general ledger accounts should not have been updated by the user
AUTOINSTALL. After continuing their research through September 30, 2011, FMO personnel
determined that AUTOINSTALL was not updating the accounts. Rather, a data coding error was
incorrectly changing and deleting the correct general ledger account data and its audit trail. This
caused any changes to these accounts to be untraceable. Specifically, the coding error changed:

   x   “Updated By” user to “AUTOINSTALL,”
   x   “Last Update” date to “December 15, 2001,” and
   x   “Enabled Flag” to “Y.”

Based on discussions with the DEAMS FMO, DFAS determined the coding error was a
DEAMS “systematic issue.”

According to FMO personnel, they received a patch from the system integrator to fix the coding
error that was incorrectly changing account data. FMO personnel stated that this patch would
correct the majority of the inconsistencies in the DEAMS COA. However, FMO personnel
tested the patch and determined the patch was not operating correctly. Therefore,
FMO personnel rejected the patch and requested the system integrator develop another patch to
resolve the data integrity problem. On March 16, 2012, more than six months after we initially
notified FMO personnel of the unauthorized changes, FMO personnel received a patch from the
system integrator to correct the data coding error. According to FMO personnel, the patch is
working as intended.

Inconsistencies in COA Data Affected the Validity and Reliability of
DEAMS Data
The May, June, and August 2011 DEAMS COAs included three types of inconsistencies in the
creation date and last update fields. FMO personnel did not identify these inconsistencies until
we brought them to their attention during the audit. Specifically, the inconsistencies in the
account data were:

   x   last update dates occurred before creation dates,
   x   the COA did not reflect all update dates, and
   x   last update dates were replaced by older update dates.

The first type of inconsistency involved two general ledger accounts in the May, June, and
August 2011 COAs that showed last update dates occurring before the account’s creation date in

                                                5

DEAMS. An example is budgetary account 4550.900030 2, which summarizes allotment data.
According to the DEAMS COA, this account’s creation date was in October 2009. However, its
last update date listed was August 2009. Therefore, according to DEAMS’ COA, account
4550.900030 was updated two months before it was created. Because an account cannot be
updated before it is created, there should not be any update dates occurring before the creation
date. Table 1 shows the two accounts’ creation dates and last update dates that appeared in the
DEAMS COA.

       Table 1. Accounts With Creation Dates After the Account’s Last Update Dates
                           May 2011 COA                    June 2011 COA           August 2011 COA
      Account                             Last                          Last                      Last
      Number            Creation                      Creation                    Creation
                                         Update                       Update                     Update
                         Date                          Date                        Date
                                          Date                         Date                       Date
    4550.900030      10/21/2009         8/10/2009    10/21/2009      8/10/2009   10/21/2009     8/10/2009
    6000              3/31/2010         8/26/2009     3/31/2010      6/13/2011    3/31/2010     8/26/2009


The second type of inconsistency involved two general ledger accounts in the August 2011 COA
with last update dates that were not identified in the May and June 2011 COA. An example is
budgetary account 4900.900090 3, which summarizes the total expended balance. In the
August 2011 COA, this account showed a last update date of March 2011. However, the
May and June 2011 COA showed a last update date of August 2009. If an update occurred in
March 2011, as the August 2011 COA showed, then the May and June 2011 COAs should also
have reflected the March 2011 date. Table 2 shows the two accounts in the August 2011 COA
with last update dates that should have appeared in May and June 2011 COA.

           Table 2. Last Update Dates That Should Have Appeared in Earlier COAs
                                                            Last Update Date
      Account Number
                                   May 2011 COA             June 2011 COA           August 2011 COA
    4610.900033                       1/13/2011                5/21/2011                  2/14/2011
    4900.900090                       8/28/2009                  8/28/2009                3/21/2011


The third type of inconsistency involved general ledger accounts in the August 2011 COA with
last update dates that preceded the last update dates found in one or both of the May or
June 2011 COA. Specifically, four general ledger accounts in the August 2011 COA had a last
update date that was before the last update date in the June 2011 COA. For example, budgetary
account 4610.900033 4, which relates to allotments and realized resources, had a last update date
of May 21, 2011, in the June 2011 COA. However, in the August 2011 COA, the last update
date was February 14, 2011, which predates the last update in the June 2011 COA by more than
three months. FMO personnel emphasized that last update dates for accounts should never
change to an older date. Therefore, there was an error in the account data because the


2
  The title of DEAMS account 4550.900030 is “AnnAllotTargetCtl.” 

3
  The title of DEAMS account 4900.900090 is “Total Expended Balance.”

4
  The title of DEAMS account 4610.900033 is “Allotments – Realized Resources – SubAllotments

ReProgramming.”


                                                      6

August 2011 COA should not show a last update date that is older than the date in the May or
June 2011 COA. Table 3 shows the four accounts, along with their last update dates that
appeared in the May, June, and August 2011 COAs.

       Table 3. Older Update Dates Replaced Newer Update Dates in the August COA
                                                    Last Update Date
       Account Number
                             May 2011 COA           June 2011 COA         August 2011 COA
    1010.011                    5/13/2011              5/13/2011                9/3/2009
    4550.900033                 10/21/2009              6/14/2011             10/21/2009
    4610.900033                  1/13/2011              5/21/2011              2/14/2011
    6000                         8/26/2009              6/13/2011              8/26/2009


On January 31, 2012, DEAMS personnel explained that they had not determined the root causes
for the remaining inconsistencies in the DEAMS COA. Therefore, they decided to develop
controls to mitigate the risk of additional inconsistencies, which included:

   x    developing standard operating procedures for General Accounting Configuration,
   x    developing internal controls for code and Global Combat Support System-Air Force Field
        Assistance Service Ticket review, and
   x    identifying anyone capable of applying scripts to the DEAMS application and restricting
        this ability to identifiable logins that track to specific team members.

According to the National Institute of Standards and Technology, “Guide for Assessing the
Security Controls in Federal Information Systems and Organizations,” June 2010, controls
similar to those identified in the bullets above should have already been implemented.
Therefore, these actions should have already been implemented before the inconsistencies in the
DEAMS COA were identified.

FMO Personnel Did Not Monitor the COA Data
FMO personnel were not monitoring additions, deletions, or changes to COA data as
recommended by the FISCAM. Effective controls and oversight procedures over the COA
                                    would have highlighted the unauthorized changes and
   Unauthorized changes and         inconsistencies in the COA data to allow for timely
  inconsistencies caused actual     investigation by FMO personnel. These undetected changes
      audit data to be lost.        demonstrate a lack of oversight and monitoring of the
                                    DEAMS COA data. According to information provided by
FMO personnel, the unauthorized changes and inconsistencies caused actual audit data to be lost.
Therefore, unless the unauthorized changes and inconsistencies are corrected, DoD and USAF
management cannot make sound business decisions because of DEAMS’ lack of an adequate
COA. In addition, DEAMS COA data may not be valid and reliable.

In accordance with DoD Instruction 5000.02, “Operation of the Defense Acquisition System,”
December 8, 2008, hardware and software alterations that materially change system
performance, including system upgrades and changes to correct deficiencies, should undergo

                                               7

Operational Test and Evaluation. The fundamental purpose of test and evaluation is to provide
knowledge to assist in managing the risks involved in developing, producing, operating, and
sustaining systems and capabilities. Therefore, USAF management should perform a validation
of the corrective actions for the unauthorized changes and inconsistencies in the DEAMS COA
before further deployment to ensure they are operating as intended. FMO personnel should
implement procedures to monitor DEAMS COA data. Further, FMO personnel need to
determine whether inconsistencies in the account data affected any other DEAMS functional
areas.

FMO Personnel Did Not Have Documented Policies and Procedures
for Modifying the COA
DEAMS FMO personnel did not document policies and procedures for modifying the DEAMS
COA. Although FMO personnel could explain the process to modify the COA, they did not have
the process documented. According to the National Institute of Standards and Technology, “An
Introduction to Computer Security: The NIST Handbook,” October 1995, documentation of all
aspects of computer support and operations is important to ensure continuity and consistency.
Formalizing operational practices and procedures with sufficient detail helps to eliminate
security lapses and oversights, gives new personnel
sufficiently detailed instructions, and provides a           FMO personnel stated they had
quality assurance function to help ensure that              not documented the processes for
operations are performed correctly and efficiently.             COA changes because the
FMO personnel stated they had not documented the           individual performing the changes
processes for COA changes because the individual                 had received training.
performing the changes had received training. Further,
the individual performing the changes knew how to perform the updates to the DEAMS COA.
However, because the processes were not documented, continuity and consistency of operations
would be affected if FMO has a change in personnel responsible for COA updates. As a result,
DEAMS management cannot ensure that operations to update the DEAMS COA will be
performed correctly and efficiently. FMO personnel should document policies, procedures, and
controls for modifying DEAMS COA data to ensure those operations are performed correctly
and efficiently.

DEAMS Did Not Report SFIS Financial Data Directly to DDRS
DEAMS did not report SFIS financial data directly to DDRS 5. This occurred because DoD and
USAF management initially decided not to report the financial data in DEAMS directly to DDRS
until the fourth quarter FY 2016. Public Law 111-84, “National Defense Authorization Act for
Fiscal Year 2010,” October 28, 2009, requires DoD to assert that the financial statements are
ready for audit by no later than September 30, 2017. The Secretary of Defense’s memorandum,
“Improving Financial Information and Achieving Audit Readiness,” October 13, 2011, directs
DoD management to achieve audit readiness for the Statement of Budgetary Resources before
the end of 2014. OUSD(C) Memorandum, “Standard Financial Information Structure (SFIS)



5
 DDRS produces the official financial statements and budgetary reports for the Military Services and
DoD agencies.

                                                        8

Implementation Policy,” August 4, 2005, requires systems containing financial information to
provide the ability to capture and transmit the SFIS data or demonstrate a cross-walking
capability to the SFIS format.

If DoD and USAF management continue with their approved plan for reporting directly to
DDRS, USAF may face challenges in achieving its audit readiness goal for the Statement of
Budgetary Resources by the end of FY 2014. 6 In addition, the plan may not give DoD and
USAF management sufficient time to ensure DEAMS reports SFIS financial data accurately to
DDRS before the start of FY 2017. Unforeseen delays in reporting SFIS financial data directly
to DDRS may impede DoD and USAF abilities to achieve audit readiness by FY 2017 and could
result in increased cost and schedule growth.

In response to the Secretary of Defense’s memorandum and our audit, USAF management is
evaluating alternatives to accelerate development and implementation of DEAMS to meet the
FY 2010 National Defense Authorization Act’s FY 2017 auditability mandate and the Secretary
of Defense’s Statement of Budgetary Resources auditability requirement. According to DEAMS
FMO personnel, they developed a tentative plan for DEAMS to report directly to DDRS
beginning in April 2013. However, this tentative plan has not been formally approved. Since
USAF management is in the process of evaluating alternatives for reporting directly to DDRS in
April 2013, we did not make any recommendations.

SAF/FM Management Actions
We issued a QRM, dated November 14, 2011, that discussed unauthorized changes to the
DEAMS COA and related audit trail deficiencies (see Appendix C for the QRM). SAF/FM and
DFAS provided responses to the QRM (see Appendix D for SAF/FM response and Appendix E
for the DFAS response). According to the comments, SAF/FM intends to complete the
following corrective actions in FY 2012:

    x	 The Oracle E-Business Suite default user account AUTOINSTALL has been disabled.
       The FMO is working with the developer on a new application interface script to facilitate
       proper loading of changes to the COA.
    x	 Change and Configuration Management processes and procedures are under review. The
       DEAMS FMO and PMO have been directed to make no changes to the DEAMS baseline
       configurations without approval from the DEAMS Change Control Board. The DEAMS
       Change Control Board and SAF/FM are implementing industry standard Information
       Technology Lifecycle Management processes.
    x	 Controls for software quality are under review. Attention is directed to controls that
       ensure appropriate reviews are being performed for software code (including scripts),
       audit logs, and system-wide scans to detect malicious code and other vulnerabilities.
    x	 Evaluation of tools to perform automated detection of any changes to baseline 

       configuration items and other settings is being conducted.



6
 USAF’s ERPs, including DEAMS, will not be fully deployed by 2014. As a result, USAF will rely on manual
controls and legacy system enhancements to meet the FY 2014 goal of audit readiness for the Statement of
Budgetary Resources.

                                                     9

   x	 A FISCAM review of DEAMS began on October 31, 2011, and will be completed before
      the end of FY 2012.

Conclusion
Unauthorized changes and other COA inconsistencies reduced the reliability of DEAMS’ COA
data, eliminated critical audit trails, and may have affected other DEAMS functional areas.
FMO personnel did not monitor additions, deletions, or changes to the COA and did not
document the procedures needed to modify the COA. Unless the unauthorized changes and
inconsistencies in the DEAMS COA are corrected, DoD and USAF management cannot rely on
DEAMS information to make sound business decisions.

DEAMS’ approved plan for reporting directly to DDRS may not allow USAF to achieve its audit
readiness goal for the Statement of Budgetary Resources before the end of FY 2014. In addition,
unforeseen delays with reporting SFIS financial data directly to DDRS may impede DoD and
USAF abilities to achieve audit readiness by FY 2017, and could result in increased cost and
schedule growth.

Recommendations, Management Comments, and
Our Response
1. We recommend that the Assistant Secretary of the Air Force for Financial Management
and Comptroller perform validation of the corrective actions for the unauthorized changes
and inconsistencies in the Defense Enterprise Accounting and Management System chart of
accounts before further deployment to ensure the corrective actions are operating as
intended.

Assistant Secretary of the Air Force (Financial Management and
Comptroller) Comments
The Principal Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller), responded on behalf of the Assistant Secretary of the Air Force (Financial
Management and Comptroller). She agreed and stated they had completed the following
corrective actions:

   x	 Disabled the Oracle E-Business Suite default user account, “AUTOINSTALL;”
   x	 Directed the DEAMS PMO and FMO to make no changes to the DEAMS baseline
      without approval from the DEAMS Executive Change Control Board;
   x	 Developed and implemented an interim manual control review process for the COA; and
   x	 Developed long-term strategy to perform automated detection of any changes to baseline
      configuration items using the Oracle Governance Risk and Compliance module, which
      will be implemented in the DEAMS environment for Release 2.

She also stated they have initiated a FISCAM review with an estimated completion date of
September 2012.




                                               10

Our Response
Comments from the Principal Deputy Assistant Secretary of the Air Force (Financial
Management and Comptroller) were responsive, and no additional comments are required.

2. We recommend that the Functional Manager, Defense Enterprise Accounting and
Management System Functional Management Office:

      a. Implement monitoring procedures to identify inconsistencies in the Defense
Enterprise Accounting and Management System chart of accounts data.

Defense Enterprise Accounting and Management System Functional
Management Office Comments
The Principal Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller), responded on behalf of the Functional Manager, DEAMS FMO. She agreed and
stated DEAMS FMO had implemented additional manual internal controls to identify
inconsistencies in the COA data. She also stated SAF/FM directed all changes to the DEAMS
COA be documented and approved prior to configuration changes. She added DEAMS FMO
started reviewing audit logs and providing them to SAF/FMP for oversight on a recurring basis.
Further, she stated the Governance Risk and Compliance tools will subsume the manual controls
with systemic controls and will require systemically routed approvals for all changes to the
DEAMS COA. The Governance Risk and Compliance tools will be implemented by
February 2013.

      b. Determine whether the inconsistencies in the account data affected any other
Defense Enterprise Accounting and Management System functional areas.

Defense Enterprise Accounting and Management System Functional
Management Office Comments
The Principal Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller), responded on behalf of the Functional Manager, DEAMS FMO. She agreed and
stated, based on a DEAMS FMO assessment of the DEAMS COA, none of the unauthorized
changes made to the COA impacted the financial records or account balances.

      c. Document policies and procedures for modifying the Defense Enterprise
Accounting and Management System chart of accounts.

Defense Enterprise Accounting and Management System Functional
Management Office Comments
The Principal Deputy Assistant Secretary of the Air Force (Financial Management and
Comptroller), responded on behalf of the Functional Manager, DEAMS FMO. She agreed and
stated DEAMS FMO and PMO updated the configuration and maintenance of DEAMS in the
DEAMS Sustainment Plan. She also stated the DEAMS FMO and DFAS will publish an
internal standard operating procedure to address continuity and consistency of operations,
including policies and procedures for modifying the DEAMS COA. The estimated completion
date is September 2012.

                                              11

Our Response
Comments from the Principal Deputy Assistant Secretary of the Air Force (Financial
Management and Comptroller) on Recommendations 2.a, 2.b, and 2.c were responsive, and no
additional comments are required.




                                            12

Appendix A. Scope and Methodology
We conducted this performance audit from January 2011 through July 2012 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

We reviewed COA information, criteria related to SFIS, and DEAMS transaction data.
Specifically, for the COA, we examined the FY 2011 Reporting USSGL COA; FY 2011 DoD
Standard COA updated in August 2010 and April 2011; and DEAMS COAs updated in
March 2011, May 2011, June 2011, and August 2011. During our SFIS review, we examined
the SFIS Business Rules (Version 7.0 and 8.0). We also examined the posted DEAMS
transaction data from the first quarter of FY 2011.

We conducted site visits to the DEAMS FMO; DEAMS PMO; and DFAS offices in Limestone,
Maine, and Columbus, Ohio. In the National Capital Region, we visited the OUSD(C), Office of
the Deputy Chief Management Officer, and SAF/FM.

To determine whether DEAMS provided DoD management with accurate and reliable financial
management information, we compared the DEAMS COA to the USSGL COA and the DoD
Standard COA to identify any differences between the account titles and normal balance
indicators for accounts in the DEAMS COA, and the corresponding accounts in the USSGL
COA and DoD Standard COA. Additionally, we obtained the USAF and USTRANSCOM trial
balances from DDRS for September 2010 and March 2011. We reviewed the USAF’s and
USTRANSCOM’s trial balances for accounts not included in the DEAMS COA. Once we
identified the accounts in the USAF’s and USTRANSCOM’s trial balances that were not in the
DEAMS COA, we reviewed the FY 2011 DoD Standard COA to identify if those specific
accounts were reported in the DoD Standard COA.

While comparing the May 2011, June 2011, and August 2011 DEAMS COA to each other, we
identified inconsistencies with the account data. Based on the inconsistencies identified, we
performed additional comparisons between the three versions of the DEAMS COA. We met
with DEAMS FMO personnel to discuss the potential inconsistencies with the accounts’ dates.
We observed the accounts within DEAMS and discussed them with FMO personnel. Based on
the inconsistencies, we could not rely on the data from DEAMS to report on the results of our
testing. Specifically, we were unable to rely on the testing related to:

   x   comparing the DEAMS COA to the USSGL and DoD Standard COA, and
   x   identifying accounts in the USAF and USTRANSCOM trial balances not in the DEAMS
       COA.

In our review of SFIS, we conducted meetings with FMO and Business Transformation Agency
personnel to determine whether DEAMS included all applicable SFIS business rules and whether
DEAMS complied with these business rules. We conducted meetings with FMO personnel and
obtained screenshots to determine whether DEAMS implemented mandatory SFIS data elements
                                                13

required by the SFIS Transaction Library for items in the posted DEAMS transaction data from
the first quarter of FY 2011. We also compared the SFIS Oracle Standard Configuration Guide
to the SFIS business rules and identified any differences or contradictions. Finally, we reviewed
the SFIS business rules to identify if any of the rules were vague, made general statements rather
than recommending specific approaches, or required the use of criteria that had not been
established. Based on the inconsistencies found during the COA review, we were unable to rely
on the testing to determine whether DEAMS implemented all mandatory SFIS data elements.

Use of Computer-Processed Data
We used DEAMS COA and transaction posted data from the first quarter of FY 2011. While
reviewing the DEAMS COA to determine whether it complied with DoD requirements, we
identified inconsistencies in account data. As a result, the computer-processed data were not
sufficiently reliable to support the findings and conclusions for testing USSGL and SFIS
compliance. We discuss the data reliability issues in the finding.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), the Department of
Defense Inspector General (DoD IG) and the Air Force Audit Agency (AFAA) issued six reports
related to DoD Business Transformation and DEAMS. Unrestricted GAO reports can be
accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports can be accessed
at http://www.dodig.mil/audit/reports. AFAA reports can be accessed from .mil domains over
the Internet at https://afkm.wpafb.af.mil/community/views/home.aspx?Filter=OO-AD-01-41 by
those with Common Access Cards.

GAO
GAO Report No. GAO-11-53, “DoD Business Transformation: Improved Management
Oversight of Business System Modernization Efforts Needed,” October 2010

GAO Report No. GAO-08-866, “DoD Business Transformation: Air Force's Current Approach
Increases Risk That Asset Visibility Goals and Transformation Priorities Will Not Be Achieved,”
August 2008

GAO Report No. GAO-08-462T, “Defense Business Transformation: Sustaining Progress
Requires Continuity of Leadership and an Integrated Approach,” February 2008

DoD IG
DoD IG Report No. D-2011-015, “Insufficient Governance Over Logistics Modernization
Program System Development,” November 2010

Air Force
AFAA Report No. F2010-0010-FB2000, “Defense Enterprise Accounting and Management
System Accounting Conformance,” August 2010

AFAA Report No. F2009-0004-FB2000, “Defense Enterprise Accounting and Management
System Controls,” February 2009

                                                14

  Appendix B. DEAMS Deployment Schedule

    DEAMS Release                         Deployment Site               Projected Release
           Title                                                               Date
                                                                            rd
  Scott Air Force Base                  Scott Air Force Base               3 Quarter,
  Tech Demonstration                                                        FY 2012
  Increment 1, Release 1       Scott Air Force Base and Air Mobility       3rd Quarter,
                               Command Sites without Transportation         FY 2013
                                       Working Capital Fund
  Increment 1, Release 2         Air Mobility Command Sites with           1st Quarter,
                                Transportation Working Capital Fund         FY 2014
                                            and MacDill
  Increment 1, Release 3           Major Upgrade to Oracle R12             2nd Quarter,
                                                                            FY 2014
  Increment 1, Release 4           USTRANSCOM and Surface                  4th Quarter,
                                   Deployment and Distribution              FY 2014
                                             Command
  Increment 1, Release 5         Air Force Sites in the Continental        2nd Quarter,
                                            United States                   FY 2016
                                                                            th
  Increment 1, Release 6       Pacific Air Forces and U.S. Air Forces      4 Quarter,
                                             in Europe                      FY 2016
  Increment 2, Release 1       Air Force Materiel Command and Air          1st Quarter,
                                       Force Space Command                  FY 2017
                                                                            rd
  Increment 2, Release 2             Foreign Military Sales and            3 Quarter,
                                      Contingency Operations                FY 2017
Source: DEAMS Business Case, January 5, 2012.




                                                  15

Appendix C. Quick Reaction Memorandum





                    16

17

18

Appendix D. U.S. Air Force Memorandum
Comments




                     19

20

Appendix E. Defense Finance and Accounting
Service Memorandum Comments




                     21

22

Glossary
Enterprise Resource Planning System – an automated system using commercial off-the-shelf
software consisting of multiple integrated functional modules that perform a variety of business
related tasks such as general ledger accounting, payroll, and supply chain management.

Increments – useful and supportable operational capabilities that can be developed, produced,
deployed, and sustained.

Mixed System – information system that supports both financial and non-financial functions of
the Federal Government or components.

Operational Test and Evaluation – used to determine the effectiveness and suitability of a
system under realistic operational conditions, including joint combat operations; used to
determine if thresholds in the approved Capability Production Document and critical operational
issues have been satisfied; assess impacts to combat operations; and provide additional
information on the system’s operational capabilities.

Patches – additional pieces of code developed to address specific problems or flaws in existing
software.

Risk – level of impact on entity operations (including mission, functions, image, or reputation),
entity assets, or individuals resulting from the operation of an information system given the
potential impact of a threat and the likelihood of that threat occurring.

Statement of Budgetary Resources – provides, along with related disclosures, information
about how budgetary resources were made available and their status at the end of the period. It
is the only financial statement predominantly derived from an entity’s budgetary general ledger
in accordance with budgetary accounting rules, which are incorporated into Generally Accepted
Accounting Principles for the Federal Government.

Target Accounting System – a Federal Financial Management Improvement Act compliant
system that is configured to post transactions to an internal USSGL compliant general ledger.

Vulnerabilities – flaws that can be exploited, enabling unauthorized access to Information
Technology systems or enabling users to have access to greater privileges than authorized.




                                                23

U.S. Air Force Comments





                      24

25

26

